                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-01975-292




    Combined Assessment Program 

            Review of the 

        VA Central California 

         Health Care System 

          Fresno, California 





August 27, 2013

                        Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                              CAP Review of the VA Central California Health Care System, Fresno, CA



                                              Glossary
                 CAP            Combined Assessment Program
                 CLC            community living center
                 CS             controlled substances
                 EHR            electronic health record
                 EOC            environment of care
                 facility       VA Central California Health Care System
                 FY             fiscal year
                 HPC            hospice and palliative care
                 MH             mental health
                 NA             not applicable
                 NC             noncompliant
                 OIG            Office of Inspector General
                 PCCT           Palliative Care Consult Team
                 QM             quality management
                 RME            reusable medical equipment
                 SPS            Sterile Processing Service
                 VHA            Veterans Health Administration
                 VISN           Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                       CAP Review of the VA Central California Health Care System, Fresno, CA



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       4

  QM ..........................................................................................................................    4

  EOC ........................................................................................................................     6

  Medication Management – CS Inspections .............................................................                             9

  Coordination of Care – HPC ...................................................................................                  11

  Pressure Ulcer Prevention and Management .........................................................                              13

  Nurse Staffing .........................................................................................................        15

  Construction Safety.................................................................................................            16


Appendixes
  A. Facility Profile ....................................................................................................        18

  B. VHA Patient Satisfaction Survey and Hospital Outcome of Care Measures ......                                                 19

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              29

  F. Report Distribution .............................................................................................            30

  G. Endnotes ...........................................................................................................         31





VA OIG Office of Healthcare Inspections
                              CAP Review of the VA Central California Health Care System, Fresno, CA



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
June 17, 2013.

Review Results: The review covered seven activities.        The facility’s reported
accomplishments were the Systems Redesign collaborative, a safety program, and an
end-of-life program.

Recommendations: We made recommendations in all seven of the following
activities:

Quality Management: Consistently perform continued stay reviews on at least
75 percent of patients in acute beds.

Environment of Care: Ensure floors in patient care areas are clean, and store clean and
dirty items separately. Require that Sterile Processing Service employees responsible
for reprocessing receive annual competency assessments and that reusable medical
equipment standard operating procedures are consistent with manufacturers’
instructions.

Medication Management – Controlled Substances Inspections: Consistently conduct
bi-weekly inventories of automated dispensing machines, and complete daily end of
shift counts for non-automated dispensing units. Amend the inspection checklist to
include all required items, and ensure inspectors perform drug destruction and audit trail
verification oversight.

Coordination of Care – Hospice and Palliative Care: Ensure that the Palliative Care
Consult Team includes a dedicated social worker and a dedicated psychologist or other
mental health provider and that all non-hospice and palliative care clinical staff who
provide care to patients at the end of their lives receive end-of-life training.

Pressure Ulcer Prevention and Management: Ensure that staff consistently document
location, stage, risk score, and/or date pressure ulcer acquired for all patients with
pressure ulcers, that all discharged pressure ulcer patients have wound care follow-up
plans and receive dressing supplies prior to being discharged, and that dietary
screening and assessment of patients with pressure ulcers is consistent with facility
policy.

Nurse Staffing: Fully implement the nurse staffing methodology.

Construction Safety: Ensure designated employees receive ongoing construction safety
training.




VA OIG Office of Healthcare Inspections                                                           i
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided
acceptable improvement plans. (See Appendixes C and D, pages 20–28, for the full
text of the Directors’ comments.) We consider recommendations 3 and 15 closed. We
will follow up on the planned actions for the open recommendations until they are
completed.




                                                            JOHN D. DAIGH, JR., MD. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                              CAP Review of the VA Central California Health Care System, Fresno, CA



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	   Conduct recurring evaluations of selected health care facility operations, focusing
        on patient care quality and the EOC.

   	   Provide crime awareness briefings to increase employee understanding of the
        potential for program fraud and the requirement to refer suspected criminal
        activity to the OIG.

Scope
We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the review, we
inspected selected areas, conversed with managers and employees, and reviewed
clinical and administrative records. The review covered the following seven activities:

   	   QM

   	   EOC

   	   Medication Management – CS Inspections

   	   Coordination of Care – HPC

   	   Pressure Ulcer Prevention and Management

   	   Nurse Staffing

   	   Construction Safety

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2012 and FY 2013 through
June 17, 2013, and was done in accordance with OIG standard operating procedures
for CAP reviews.    We also asked the facility to provide the status on the
recommendations we made in our previous CAP report (Combined Assessment
Program Review of the VA Central California Health Care System, Fresno, California,
Report No.10-01081-135, April 22, 2010).




VA OIG Office of Healthcare Inspections                                                           1
                              CAP Review of the VA Central California Health Care System, Fresno, CA


During this review, we presented crime awareness briefings for 249 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
254 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

Systems Redesign
In FY 2012, the facility implemented a Systems Redesign improvement with the urology
clinic’s successful participation in the Surgical and Specialty Care Collaborative. With
the aim of improving access to outpatient urology care, the interdisciplinary team
streamlined clinic operations, redefined staff roles and responsibilities, and enhanced
team cohesiveness. As a result, the team improved access for new patients from more
than 60 days to approximately 12 days. Clinic staff also adopted new methodologies
such as electronic consults, daily huddles, and the use of a care coordinator. In
June 2012, the team’s efforts and successes achieved were presented at a national
learning session.

Red Wave Safety Program
The Red Wave program is an innovative approach to assist veterans who have a high
risk of falling or have health conditions that make it difficult to walk. Team members
wear bright red shirts to make them easily recognizable to the approximately
1,300 veterans they assist each day. The team consists of volunteers and work-study
program participants and embodies VHA’s strategic goal of providing personalized,
proactive, and patient-centered care. Members of the team provide curbside service
and assist patients from their cars into the facility. The program helped decrease the
outpatient fall rate by 50 percent in FY 2011, and the rate has continued to drop. The
facility’s Red Wave program won the American Spirit Award and was named as a best
practice VA-wide.

End-of-Life—No Veteran Dies Alone Program
The facility’s No Veteran Dies Alone program was designed to honor and meet the
needs of veterans who are alone as they are nearing the end of life. A trained group of
dedicated veteran and employee volunteers provides presence, companionship, and
reassurance to any veteran at the end of life. When family and friends are unable to be



VA OIG Office of Healthcare Inspections                                                           2
                              CAP Review of the VA Central California Health Care System, Fresno, CA


with a veteran at the end of life or a hospice patient is in need of companionship,
volunteers sit at the bedside to help ease loneliness, anxiety, or restlessness. On
December 12, 2011, the facility’s program was profiled on the television show “CBS
Evening News” with Scott Pelley.




VA OIG Office of Healthcare Inspections                                                           3
                                          CAP Review of the VA Central California Health Care System, Fresno, CA



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility complied with selected
requirements within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                   Areas Reviewed                                             Findings
       There was a senior-level committee/group
       responsible for QM/performance
       improvement, and it included the required
       members.
       There was evidence that Inpatient Evaluation
       Center data was discussed by senior
       managers.
       Corrective actions from the protected peer
       review process were reported to the Peer
       Review Committee.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       complied with selected requirements.
 NA    Local policy for the use of observation beds
       complied with selected requirements.
 NA    Data regarding appropriateness of
       observation bed use was gathered, and
       conversions to acute admissions were less
       than 30 percent, or the facility had reassessed
       observation criteria and proper utilization.
 X     Staff performed continuing stay reviews on at        Three quarters of continuing stay data reviewed:
       least 75 percent of patients in acute beds.           For all 3 quarters, less than 75 percent of
                                                              acute inpatients were reviewed.
       Appropriate processes were in place to
       prevent incidents of surgical items being
       retained in a patient following surgery.
       The cardiopulmonary resuscitation review
       policy and processes complied with
       requirements for reviews of episodes of care
       where resuscitation was attempted.
       There was an EHR quality review committee,
       and the review process complied with
       selected requirements.
       The EHR copy and paste function was
       monitored.


VA OIG Office of Healthcare Inspections                                                                        4
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


 NC             Areas Reviewed (continued)                                       Findings
       Appropriate quality control processes were in
       place for non-VA care documents, and the
       documents were scanned into EHRs.
       Use and review of blood/transfusions
       complied with selected requirements.
       CLC minimum data set forms were transmitted
       to the data center with the required frequency.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       There was evidence at the senior leadership
       level that QM, patient safety, and systems
       redesign were integrated.
       Overall, there was evidence that senior
       managers were involved in performance
       improvement over the past 12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that continued stay reviews
are consistently performed on at least 75 percent of patients in acute beds.




VA OIG Office of Healthcare Inspections                                                                       5
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in the hemodialysis and SPS areas were met.2

We inspected four inpatient care areas (an acute care unit, the intensive care unit, the locked
MH unit, and the CLC), the emergency department, primary care (pod D), the specialty care
area, and SPS. Additionally, we reviewed relevant documents, conversed with key employees
and managers, and reviewed competency files for 10 hemodialysis contractors and 4 SPS
employees. The facility provided bedside hemodialysis only. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

 NC           Areas Reviewed for General EOC                                     Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.
 X     Environmental safety requirements were met.           Two of the seven patient care areas
                                                              inspected had dirty floors.
 X     Infection prevention requirements were met.           In three of the seven patient areas inspected,
                                                              clean and dirty items were not stored
                                                              separately.
       Medication safety and security requirements
       were met.
       Sensitive patient information was protected,
       and patient privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
            Areas Reviewed for Hemodialysis
       The facility had policy detailing the cleaning
       and disinfection of hemodialysis equipment
       and environmental surfaces and the
       management of infection prevention
       precautions patients.




VA OIG Office of Healthcare Inspections                                                                        6
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


 NC          Areas Reviewed for Hemodialysis                                     Findings
                          (continued)
       Monthly biological water and dialysate testing
       was conducted and included required
       components, and identified problems were
       corrected.
       Contractors received training on bloodborne
       pathogens.
       Contractor hand hygiene monitoring was
       conducted, and any needed corrective actions
       were implemented.
 NA    Selected EOC/infection prevention/safety
       requirements were met in the hemodialysis
       clinic.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for SPS/RME
       The facility had policies/procedures/guidelines
       for cleaning, disinfecting, and sterilizing RME.
       The facility used an interdisciplinary approach
       to monitor compliance with established RME
       processes, and RME-related activities were
       reported to an executive-level committee.
 NA    The facility had policies/procedures/guidelines
       for immediate use (flash) sterilization and
       monitored it.
 X     Employees received required RME training              All 4 SPS employees had been on duty for
       and competency assessment.                             more than 2 years; there was no evidence
                                                              that 2 received all applicable annual
                                                              competency assessments.
 NA    Operating room employees who performed
       immediate use (flash) sterilization received
       training and competency assessment.
 X     RME standard operating procedures were               RME standard operating procedures,
       consistent with manufacturers’ instructions,         manufacturers’ instructions, and 1 day of
       procedures were located where reprocessing           sterilization logs for 3 RME items reviewed:
       occurs, and sterilization was performed as            Two of the standard operating procedures
       required.                                               were not consistent with manufacturers’
                                                               instructions.
       Selected infection prevention/environmental
       safety requirements were met.
       Selected requirements for SPS
       decontamination and sterile storage areas
       were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.




VA OIG Office of Healthcare Inspections                                                                       7
                                          CAP Review of the VA Central California Health Care System, Fresno, CA



Recommendations

2. We recommended that processes be strengthened to ensure that floors in patient care
areas are clean and that compliance be monitored.

3. We recommended that processes be strengthened to ensure that clean and dirty items are
stored separately.

4. We recommended that processes be strengthened to ensure that SPS employees
responsible for reprocessing activities receive annual competency assessments.

5. We recommended that processes be strengthened to ensure that RME standard operating
procedures are consistent with manufacturers’ instructions.




VA OIG Office of Healthcare Inspections                                                                       8
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


Medication Management – CS Inspections
The purpose of this review was to determine whether the facility complied with requirements
related to CS security and inspections.3

We reviewed relevant documents and conversed with key employees. We also reviewed the
training files of both CS Coordinators and 11 CS inspectors and inspection documentation from
11 CS areas, the inpatient and outpatient pharmacies, and the emergency drug cache. The
table below shows the areas reviewed for this topic. The areas marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

NC                     Areas Reviewed                                            Findings
       Facility policy was consistent with VHA
       requirements.
       VA police conducted annual physical security
       surveys of the pharmacy/pharmacies, and any
       identified deficiencies were corrected.
 X     Instructions for inspecting automated                 Automated dispensing machine inspection
       dispensing machines were documented,                  instructions reviewed:
       included all required elements, and were               Although instructions required bi-weekly
       followed.                                               inventories of automated dispensing
                                                               machines, they were not consistently
                                                               conducted.
       Monthly CS inspection findings summaries
       and quarterly trend reports were provided to
       the facility Director.
       CS Coordinator position description(s) or
       functional statement(s) included duties, and
       CS Coordinator(s) completed required
       certification and were free from conflicts of
       interest.
       CS inspectors were appointed in writing,
       completed required certification and training,
       and were free from conflicts of interest.
 X     Non-pharmacy areas with CS were inspected             Documentation of 11 CS areas inspected during
       in accordance with VHA requirements, and              the past 6 months reviewed:
       inspections included all required elements.            Daily end of shift counts for non-automated
                                                               dispensing units were not done at the Tulare
                                                               clinic. Instead, a count was done only when a
                                                               CS was dispensed.




VA OIG Office of Healthcare Inspections                                                                       9
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


NC             Areas Reviewed (continued)                                        Findings
 X     Pharmacy CS inspections were conducted in             Documentation of pharmacy CS inspections
       accordance with VHA requirements and                  during the past 6 months reviewed:
       included all required elements.                        The pharmacy inspection checklist for CS
                                                               inspectors was missing two required
                                                               components—verification of quarterly drug
                                                               destruction and verification of the audit trail for
                                                               destruction of 10 randomly selected drugs.
                                                               Instead, the CS Coordinator or alternate
                                                               witnessed all drugs that were turned in for
                                                               destruction.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

6. We recommended that processes be strengthened to ensure that bi-weekly inventories of
automated dispensing machines are consistently conducted and that compliance be monitored.

7. We recommended that processes be strengthened to ensure that end of shift counts for
non-automated dispensing units are completed daily and that compliance be monitored.

8. We recommended that the inspection checklist be amended to include all required items
and that processes be strengthened to ensure that inspectors perform drug destruction and
audit trail verification oversight and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                         10
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


Coordination of Care – HPC
The purpose of this review was to determine whether the facility complied with selected
requirements related to HPC, including PCCT, consults, and inpatient services.4

We reviewed relevant documents, 20 EHRs of patients who had PCCT consults (including
10 HPC inpatients), and 28 employee training records (3 HPC staff records and 25 non-HPC
staff records), and we conversed with key employees. The table below shows the areas
reviewed for this topic. The areas marked as NC needed improvement. Any items that did not
apply to this facility are marked NA.

NC                     Areas Reviewed                                            Findings
X      A PCCT was in place and had the dedicated            List of staff assigned to the PCCT reviewed:
       staff required.                                       A social worker and psychologist or other MH
                                                               provider had not been dedicated to the
                                                               PCCT.
       The PCCT actively sought patients
       appropriate for HPC.
       The PCCT offered end-of-life training.
X      HPC staff and selected non-HPC staff had              There was no evidence that eight non-HPC
       end-of-life training.                                  staff had end-of-life training.
       The facility had a VA liaison with community
       hospice programs.
       The PCCT promoted patient choice of location
       for hospice care.
       The CLC-based hospice program offered
       bereavement services.
       The HPC consult contained the word
       “palliative” or “hospice” in the title.
       HPC consults were submitted through the
       Computerized Patient Record System.
       The PCCT responded to consults within the
       required timeframe and tracked consults that
       had not been acted upon.
       Consult responses were attached to HPC
       consult requests.
       The facility submitted the required electronic
       data for HPC through the VHA Support
       Service Center.
       An interdisciplinary team care plan was
       completed for HPC inpatients within the
       facility’s specified timeframe.
       HPC inpatients were assessed for pain with
       the frequency required by local policy.
       HPC inpatients’ pain was managed according
       to the interventions included in the care plan.
       HPC inpatients were screened for an
       advanced directive upon admission and
       according to local policy.



VA OIG Office of Healthcare Inspections                                                                      11
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


 NC            Areas Reviewed (continued)                                        Findings
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

9. We recommended that processes be strengthened to ensure that the PCCT includes a
dedicated social worker and a dedicated psychologist or other MH provider.

10. We recommended that processes be strengthened to ensure that all non-HPC clinical staff
who provide care to patients at the end of their lives receive end-of-life training.




VA OIG Office of Healthcare Inspections                                                                      12
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.5

We reviewed relevant documents, 21 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
1 patient with a pressure ulcer at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected one patient room. The table below shows the areas reviewed for this
topic. The areas marked as NC needed improvement. Any items that did not apply to this
facility are marked NA.

 NC                     Areas Reviewed                                           Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer, change in condition,
       and discharge.
 X     Staff were generally consistent in                    In five of the 21 EHRs, staff did not
       documenting location, stage, risk scale score,         consistently document the location, stage, risk
       and date acquired.                                     scale score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
 X     If the patient’s pressure ulcer was not healed        None of the four applicable EHRs contained
       at discharge, a wound care follow-up plan was          evidence of wound care follow-up plans at
       documented, and the patient was provided               discharge or evidence that patients received
       appropriate dressing supplies.                         dressing supplies prior to discharge.




VA OIG Office of Healthcare Inspections                                                                      13
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


 NC            Areas Reviewed (continued)                                        Findings
       The facility defined requirements for patient
       and caregiver pressure ulcer education, and
       education on pressure ulcer prevention and
       development was provided to those at risk for
       and with pressure ulcers and/or their
       caregivers.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
 X     The facility complied with any additional            Local policies on nutrition and wound care
       elements required by VHA or local policy.            reviewed:
                                                             Nutrition and Food Service’s procedure
                                                               regarding who performs dietary screening
                                                               and assessment of pressure ulcer patients
                                                               was inconsistent with facility policy.

Recommendations

11. We recommended that processes be strengthened to ensure that acute care staff
consistently document location, stage, risk scale score, and/or date pressure ulcer acquired for
all patients with pressure ulcers and that compliance be monitored.

12. We recommended that processes be strengthened to ensure that all patients discharged
with pressure ulcers have wound care follow-up plans and receive dressing supplies prior to
being discharged and that compliance be monitored.

13. We recommended that processes be strengthened to ensure that the dietary screening and
assessment of patients with pressure ulcers is consistent with facility policy and that compliance
be monitored.




VA OIG Office of Healthcare Inspections                                                                      14
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


Nurse Staffing
The purpose of this review was to determine the extent to which the facility implemented the
staffing methodology for nursing personnel and to evaluate nurse staffing on three inpatient
units (acute medical/surgical, long-term care, and MH).6

We reviewed relevant documents and we conversed with key employees. The table below
shows the areas reviewed for this topic. The area marked as NC needed improvement. Any
items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                           Findings
 X     The facility completed the required steps to          The facility had not fully implemented the
       develop a nurse staffing methodology by the            staffing methodology.
       deadline.
 NA    The unit-based expert panels followed the
       required processes and included all required
       members.
 NA    The facility expert panel followed the required
       processes and included all required members.
 NA    Members of the expert panels completed the
       required training.
 NA    The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

14. We recommended that the facility fully implement the nurse staffing methodology.




VA OIG Office of Healthcare Inspections                                                                      15
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


Construction Safety
The purpose of this review was to determine whether the facility maintained infection control and
safety precautions during construction and renovation activities in accordance with applicable
standards.7

We inspected the dental clinic expansion project. Additionally, we reviewed relevant documents
and 12 employee training records, and we conversed with key employees and managers. The
table below shows the areas reviewed for this topic. The area marked as NC needed
improvement. Any items that did not apply to this facility are marked NA.

 NC                    Areas Reviewed                                            Findings
       There was a multidisciplinary committee to
       oversee infection control and safety
       precautions during construction and
       renovation activities and a policy outlining the
       responsibilities of the committee, and the
       committee included all required members.
       Infection control, preconstruction, interim life
       safety, and contractor tuberculosis risk
       assessments were conducted prior to project
       initiation.
 NA    There was documentation of results of
       contractor tuberculosis skin testing and of
       follow-up on any positive results.
       There was a policy addressing Interim Life
       Safety Measures, and required Interim Life
       Safety Measures were documented.
       Site inspections were conducted by the
       required multidisciplinary team members at
       the specified frequency and included all
       required elements.
       Infection Control Committee minutes
       documented infection surveillance activities
       associated with the project(s) and any
       interventions.
       Construction Safety Committee minutes
       documented any unsafe conditions found
       during inspections and any follow-up actions
       and tracked actions to completion.
 X     Contractors and designated employees                 Employee training records reviewed:
       received required training.                           Two employee records did not contain
                                                              evidence of at least 10 hours of construction
                                                              safety-related training in the past 2 years.
       Dust control requirements were met.
       Fire and life safety requirements were met.
       Hazardous chemicals requirements were met.
       Storage and security requirements were met.




VA OIG Office of Healthcare Inspections                                                                       16
                                          CAP Review of the VA Central California Health Care System, Fresno, CA


 NC            Areas Reviewed (continued)                                        Findings
       The facility complied with any additional
       elements required by VHA or local policy or
       other regulatory standards.

Recommendation

15. We recommended that processes be strengthened to ensure that designated employees
receive ongoing construction safety training and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                      17
                                    CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                              Appendix A


       Facility Profile (Fresno/570) FY 2013 through April 2013a
Type of Organization                                                             Secondary
Complexity Level                                                                 2-Medium complexity
Affiliated/Non-Affiliated                                                        Affiliated
Total Medical Care Budget in Millions                                            $195.1
Number (through May 2013) of:
    Unique Patients                                                             25,625
    Outpatient Visits                                                           234,092
    Unique Employeesb                                                           919
Type and Number of Operating Beds:
    Hospital                                                                    57
    CLC                                                                         60
    MH                                                                          12
Average Daily Census:
    Hospital                                                                    45
    CLC                                                                         47
    MH                                                                          7
Number of Community Based Outpatient Clinics                                     3
Location(s)/Station Number(s)                                                    Merced/570GA
                                                                                 Tulare/570GB
                                                                                 Oakhurst/570GC
VISN Number                                                                      21




a
    All data is for FY 2013 through April 2013 except where noted.
b
    Unique employees involved in direct medical care (cost center 8200).


VA OIG Office of Healthcare Inspections                                                                18
                                   CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                             Appendix B


                            VHA Patient Satisfaction Survey 

VHA has identified patient satisfaction scores as significant indicators of facility
performance. Patients are surveyed monthly. Table 1 below shows facility, VISN, and
VHA overall inpatient and outpatient satisfaction scores for FY 2012.

Table 1
    Fresno, CA          Inpatient Scores                            Outpatient Scores
                            FY 2012                                     FY 2012
                   Inpatient       Inpatient      Outpatient     Outpatient        Outpatient       Outpatient
                   Score           Score          Score          Score             Score            Score
                   Quarters 1–2    Quarters 3–4   Quarter 1      Quarter 2         Quarter 3        Quarter 4
    Facility       67.7            62.4           58.4           57.0              55.7             56.1
    VISN           70.1            61.9           58.1           55.8              57.4             59.1
    VHA            63.9            65.0           55.0           54.7              54.3             55.0



                          Hospital Outcome of Care Measures 

Hospital Outcome of Care Measures show what happened after patients with certain
conditions received hospital care.c Mortality (or death) rates focus on whether patients
died within 30 days of being hospitalized. Readmission rates focus on whether patients
were hospitalized again within 30 days of their discharge. These rates are based on
people who are 65 and older and are “risk-adjusted” to take into account how sick
patients were when they were initially admitted. Table 2 below shows facility and U.S.
national Hospital Outcome of Care Measure rates for patients discharged between
July 1, 2008, and June 30, 2011.d

Table 2

                                  Mortality                                    Readmission
                 Heart Attack     Heart           Pneumonia     Heart Attack     Heart            Pneumonia
                                  Failure                                        Failure
    Facility     15.9             16.6            14.6          19.7             27.8             17.3
    U.S.
    National     15.5             11.6            12.0          19.7             24.7             18.5




c
  A heart attack occurs when blood flow to a section of the heart muscle becomes blocked, and the blood supply is
slowed or stopped. If the blood flow is not restored timely, the heart muscle becomes damaged. Heart failure is a
weakening of the heart’s pumping power. Pneumonia is a serious lung infection that fills the lungs with mucus and
causes difficulty breathing, fever, cough, and fatigue.
d
  Rates were calculated from Medicare data and do not include data on people in Medicare Advantage Plans (such as
health maintenance or preferred provider organizations) or people who do not have Medicare.


VA OIG Office of Healthcare Inspections                                                                          19
                              CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                    Memorandum


       Date:           August 8, 2013

       From:           Director, Sierra Pacific Network (10N21)

       Subject:        CAP Review of the VA Central California Health Care
                       System, Fresno, CA

       To:             Director, Los Angeles Office of Healthcare Inspections
                       (54LA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. Thank you for the opportunity to review the draft OIG CAP report for
          Central California Health Care System.

       2.	 Attached is the action plan developed by the facility. I am confident that
           actions developed will ensure full compliance with all of the
           recommendations.

       3.	 If you have any questions, please contact Terry Sanders Associate
           Quality Manager for VISN 21 at (707) 562-8370.




           Attachments




VA OIG Office of Healthcare Inspections                                                          20
                              CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                        Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs 	                                  Memorandum


       Date: 	          August 5, 2013

       From: 	          Director, VA Central California Health Care System (570/00)

       Subject: 	       CAP Review of the VA Central California Health Care
                        System, Fresno, CA

       To: 	            Director, Sierra Pacific Network (10N21)

       1. I appreciate	 the opportunity to provide our input to the VA-OIG
          Combined Assessment Program (CAP) review of our health care
          system which took place during the week of June 17, 2013.
       2.	 I concur with all the findings and suggested improvement actions.

       3.	 On behalf of our health care system, I would like to express my thanks
           to the OIG-CAP review team which visited our facility. We found the
           team members not only fair in their assessments, but very helpful
           throughout our preparatory activities and during the review itself.

       4.	 We appreciate the important feedback we received from this review
           and will use the information to further strengthen our administrative
           and clinical operations.

           Sincerely,




VA OIG Office of Healthcare Inspections                                                          21
                              CAP Review of the VA Central California Health Care System, Fresno, CA


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
continued stay reviews are consistently performed on at least 75 percent of patients in
acute beds.

Concur

Target date for completion: November 1, 2013

Facility response:

In February 2013, a System Redesign “100-Day” project was implemented by the
healthcare system to realize efficiencies within facility utilization management
processes. Final recommendations were approved in May 2013, with a new Bed
Management Team initiated in July 2013. Utilization management activities were
expanded from one RN completing utilization reviews to four RNs managing utilization
reviews as well as bed control and patient transfer activities.

All members of the new Bed Management Team have received initial training in use of
InterQual criteria; it will take several months for all members of the team to optimize
their efficiencies in use of these criteria. Efficiencies will also be optimized in the
technical aspects of the UM review process, which includes use of NUMI software. At
the end of June 2013, the FY13 average rate of completion for continued stay reviews
for patients in acute beds was 26.3 percent. The goal is to consistently perform
continued stay reviews on at least 75 percent of patients in acute beds. Results will be
monitored and reported quarterly to the Quality Council.

Recommendation 2. We recommended that processes be strengthened to ensure that
floors in patient care areas are clean and that compliance be monitored.

Concur

Target date for completion: November 30, 2013

Facility response:

Environmental Management has developed a Unit Based Environment of Care program
and action plan to ensure patient care areas are clean and within compliance. The
program ensures real time assessments with follow up of cleaning needs. The Internal
inspection processes are underway of redesign, allowing for third party inspection
processes to be implemented with established follow ups with continuous monitoring.


VA OIG Office of Healthcare Inspections                                                          22
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Work verification will be measured and accomplished according to VA of Central
California Health Care system standard operating procedures.

Reassessment of staffing and coverage capabilities is underway and will be
accomplished by October 31, 2013 with action items implemented by
November 30, 2013.

Recommendation 3. We recommended that processes be strengthened to ensure that
clean and dirty items are stored separately.

Concur

Target date for completion: Completed June 28, 2013

Facility response:

Staff has been re-educated to ensure all clean and dirty items are properly/separately
stored. The Emergency Services department provided re-education to the staff on
June 21, 2013 and implemented a process to ensure clean items are stored separately
from dirty items.

On the inpatient medical units (5E), the correct process for storage of clean equipment,
such as IV poles, was reviewed with all staff during staff meeting on June 28, 2013
through email notifications, and via shift huddles. Real time education to staff members
also occurs as need arises. Signage has been appropriately placed as visual cues to
ensure processes are maintained.

Unit managers and charge nurses ensure items are stored properly by completing a
check list for every shift. Breaks in process will be immediately corrected and reported
via the 24 hour report. Environment of Care rounds also ensures clean and dirty item
storage is kept separate.

Recommendation 4. We recommended that processes be strengthened to ensure that
SPS employees responsible for reprocessing activities receive annual competency
assessments.

Concur

Target date for completion: August 15, 2013

Facility response:

SPS technician’s competencies are maintained in the SPS Chief’s office. The
competencies are reviewed annually. The Chief and Assistant Chief of SPS are
currently reviewing all SPS staff competencies.




VA OIG Office of Healthcare Inspections                                                          23
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Recommendation 5. We recommended that processes be strengthened to ensure that
RME standard operating procedures are consistent with manufacturers’ instructions.

Concur

Target date for completion: October 1, 2013

Facility response:

The Chief and Assistant Chief have developed a review process to ensure all Re-usable
Medical Equipment (RME) standard operating procedures (SOPs) are consistent with
manufacturer’s instructions. The full review will be completed by September 25, 2013.
A cross comparison will be completed for updated RME SOPs and/or updated
manufacturer’s instructions. RME SOPs and manufacturer instruction crosswalk will be
completed by October 1, 2013 and annually thereafter.

Recommendation 6. We recommended that processes be strengthened to ensure that
bi-weekly inventories of automated dispensing machines are consistently conducted
and that compliance be monitored.

Concur

Target date for completion: October 1, 2013

Facility response:

The Nurse Managers in areas with Pyxis units have re-educated their staff on the
processes to complete the inventory count and will check these areas to assure
bi-weekly compliance. An electronic report will be printed and reviewed monthly by the
controlled substance coordinator to monitor compliance. Ongoing monitoring for
compliance will continue through October 1, 2013.

Recommendation 7. We recommended that processes be strengthened to ensure that
end of shift counts for non-automated dispensing units are completed daily and that
compliance be monitored.

Concur

Target date for completion: October 1, 2013

Facility response:

The CBOC nurse managers have educated their staff on the daily end-of-shift count
process. The nurse manager at the CBOC Tulare location will also send a photocopy of
the daily count record VA Form 10-1043 to Chief Nurse Executive as well as the
Controlled Substance Inspection Coordinator every other week, which will be included
in the monthly report to the Facility Director.




VA OIG Office of Healthcare Inspections                                                          24
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Recommendation 8. We recommended that the inspection checklist be amended to
include all required items and that processes be strengthened to ensure that inspectors
perform drug destruction and audit trail verification and that compliance be monitored.

Concur

Target date for completion: July 31, 2013

Facility response:

Although 100% of drug destruction is witnessed by the controlled substance inspection
coordinator monthly, a separate audit of 10 randomly-selected drugs for destruction will
be completed each month to meet VHA policy. The controlled substance inspectors will
ensure this process occurs by comparing the destruction holding report with the
inventory receipt issued by the contracting destruction agency. The current controlled
substance inspectors assigned to this inspection zone (i.e. pharmacy) have been
educated accordingly. The controlled substance inspection coordinator will also verify
compliance each month.  

Recommendation 9. We recommended that processes be strengthened to ensure that
the PCCT includes a dedicated social worker and a dedicated psychologist or other MH
provider.

Concur

Target date for completion: September 30, 2013

Facility response:

After consultation with the National Director of Hospice and Palliative Care regarding
the requirements for Palliative Care Consult Team (PCCT) staffing, it was determined
that the hiring of a Licensed Clinical Social Worker (LCSW) can meet the requirements
for PCCT psychosocial staffing.

The Palliative Care team has initiated the recruitment process for a dedicated LCSW.
The target date to fill the LCSW position for the Palliative Care Team is by
September 30, 2013.

Recommendation 10. We recommended that processes be strengthened to ensure
that all non-HPC clinical staff who provide care to patients at the end of their lives
receive end-of-life training.

Concur

Target date for completion: September 30, 2013




VA OIG Office of Healthcare Inspections                                                          25
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Facility response:

A facility wide educational plan has been put into place to ensure all non-HPC clinical
staff who provides care to end-of-life patients receives end-of-life training.

This training will be monitored through the Talent Management System (TMS). Each
service-line Chief, Supervisor and/or Manager will ensure training is completed by
September 30, 2013 and annually thereafter.

For new employees who provide end-of-life care, the end-of-life training is addressed at
new employee orientation.

Recommendation 11. We recommended that processes be strengthened to ensure
that acute care staff consistently document location, stage, risk scale score, and/or date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: August 1, 2013 for current staff and ongoing thereafter.

Facility response:

Licensed nursing staff has completed the National Database of Nursing Quality
Indicators (NDNQI) Pressure Ulcer module. Newly hired licensed nursing staff will
receive the NDNQI Pressure Ulcer module as part of the new hire orientation and
annually thereafter.

To ensure compliance, Unit Managers or designees will review 100% of admission
records over a four consecutive month time frame, to ensure compliance with both the
local and national pressure ulcer policies.

The data will be reported to the monthly Veterans Experience Performance Excellence
Council (VEPEC).

Recommendation 12. We recommended that processes be strengthened to ensure
that all patients discharged with pressure ulcers have wound care follow-up plans and
receive dressing supplies prior to being discharged and that compliance be monitored.

Concur

Target date for completion: August 1, 2013

Facility response:

Wound nurses provide written wound care recommendations, which includes wound
care supply list for 100% of patients with pressure ulcers. The wound care nurse team




VA OIG Office of Healthcare Inspections                                                          26
                              CAP Review of the VA Central California Health Care System, Fresno, CA


audits 100% of all patients who are discharged with pressure ulcers to ensure
appropriate follow up plans and supplies are provided to the patient.

For all patients with pressure ulcers, physicians complete the Discharge Instructions
which includes wound care instructions/guidance. Pharmacy orders are placed for
wound care supplies until the patient is seen by the Primary Care provider or for a
follow-up surgical clinic appointment.

The discharging nurse reviews the wound care instructions and confirms appropriate
wound care supplies have been ordered.

The data will be reported to the monthly Veterans Experience Performance Excellence
Council (VEPEC).

Recommendation 13. We recommended that processes be strengthened to ensure
that the dietary screening and assessment of patients with pressure ulcers is consistent
with facility policy and that compliance be monitored.

Concur

Target date for completion: November 1, 2013

Facility response:

Healthcare System policy has been updated to ensure the appropriate process for
dietary screening and assessment of patients with pressure ulcers is in place. To
ensure correct process is followed, the Nutrition and Food Services department is
providing in-servicing to the nursing team regarding the process improvements.

The process has been strengthened to ensure the following: patients identified by
nursing staff with a Braden Scale score of 16 or below will be referred to the dietitian for
nutritional assessment within 24 hours. Patients not identified by nursing to be at
nutritional risk will be visited and screened by the clinical dietetic technician within
3 days of admission. Patients will be screened based on nutrition-related criteria which
include skin integrity. Based on this information, patients are assigned one of the
following nutrition risk-status levels: Normal, Mildly Compromised, Moderately
Compromised, or Severely Compromised. Nutritional Assessments will be performed
by the dietitian based on Nutrition and Food Services Memorandum No. C2: Medical
Nutrition Therapy Inpatient Practice Guidelines. The dietitian completes a nutritional
assessment within 24 hours after patient is identified at high-risk by nursing.

The Chief of Nutrition and Food Services, or designee, will monitor compliance by
completing 20 dietitian chart reviews per month.

All HCSM updates and in-servicing will be completed by November 1, 2013. The data
will be reported at the monthly Veterans Experience Performance Excellence Council
(VEPEC).



VA OIG Office of Healthcare Inspections                                                          27
                              CAP Review of the VA Central California Health Care System, Fresno, CA


Recommendation 14. We recommended that the facility fully implement the nurse
staffing methodology.

Concur

Target date for completion: September 30, 2013

Facility response:

The Unit-Based Expert Panels and data collection processes are in place. The
Facility-Based Expert Panel (FEBP) team members have been confirmed. The staffing
indicator review and recalculation of Staffing Methodology has been completed.

Full implementation of the Nurse Staffing Methodology will be in place by
September 30, 2013.

Recommendation 15. We recommended that processes be strengthened to ensure
that designated employees receive ongoing construction safety training and that
compliance be monitored.

Concur

Target date for completion: July 17, 2013

Facility response:

Engineering and Safety Service coordinated an OSHA 10-hour course for all full-time
employees who are involved in construction-related activities. This included the
Purchase and Hire employees, and Maintenance & Repair employees. This training
was provided to the employees on July 15th and 17th, 2013.

This training will be monitored and tracked using Talent Management System (TMS),
where the curriculum will be added to all applicable employee profiles. TMS provides
timely alerts to employees and supervisors. The Engineering Service secretary tracks
training deadlines to ensure completion.




VA OIG Office of Healthcare Inspections                                                          28
                              CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Simonette Reyes, RN, Team Leader
Contributors            Daisy Arugay, MT
                        Donald Braman, RN
                        Matt Frazier, MPH
                        Keyla Gammarano, RN, MHA
                        Yoonhee Kim, PharmD
                        Kathleen Shimoda, RN
                        James Wahleithner
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Jeff Joppie, BS
                        Jackelinne Melendez, MPA
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                          29
                              CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                         Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, Sierra Pacific Network (10N21)
Director, VA Central California Health Care System (570/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Jim Costa, Jared Huffman, Kevin McCarthy,
 Tom McClintock, Devin Nunes, David Valadao


This report is available at www.va.gov/oig/.




VA OIG Office of Healthcare Inspections                                                          30
                                     CAP Review of the VA Central California Health Care System, Fresno, CA
                                                                                               Appendix G

                                                 Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
2
  References used for this topic included:
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Directive 2009-004, Use and Reprocessing of Reusable Medical Equipment (RME) in Veterans Health
   Administration Facilities, February 9, 2009.
	 VHA Directive 2009-026, Location, Selection, Installation, Maintenance, and Testing of Emergency Eyewash and
   Shower Equipment, May 13, 2009.
	 VA National Center for Patient Safety, “Look-Alike Hemodialysis Solutions,” Patient Safety Alert 11-09,
   September 12, 2011.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04,
   January 17, 2013.
	 Various requirements of The Joint Commission, the Centers for Disease Control and Prevention, the Occupational
   Safety and Health Administration, the National Fire Protection Association, the American National Standards
   Institute, the Association for the Advancement of Medical Instrumentation, the International Association of
   Healthcare Central Service Materiel Management, and the Association for Professionals in Infection Control and
   Epidemiology.
3
  References used for this topic included:
	 VHA Handbook 1108.01, Controlled Substances (Pharmacy Stock), November 16, 2010. 
	 VHA Handbook 1108.02, Inspection of Controlled Substances, March 31, 2010.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA, “Clarification of Procedures for Reporting Controlled Substance Medication Loss as Found in VHA
   Handbook 1108.01,” Information Letter 10-2011-004, April 12, 2011.
	 VA Handbook 0730, Security and Law Enforcement, August 11, 2000.
	 VA Handbook 0730/2, Security and Law Enforcement, May 27, 2010.
4
  References used for this topic included:
	 VHA Directive 2008-066, Palliative Care Consult Teams (PCCT), October 23, 2008.
	 VHA Directive 2008-056, VHA Consult Policy, September 16, 2008.
	 VHA Handbook 1004.02, Advanced Care Planning and Management of Advance Directives, July 2, 2009.
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Directive 2009-053, Pain Management, October 28, 2009.
	 Under Secretary for Health, “Hospice and Palliative Care are Part of the VA Benefits Package for Enrolled
   Veterans in State Veterans Homes,” Information Letter 10-2012-001, January 13, 2012.




VA OIG Office of Healthcare Inspections                                                                       31
                                     CAP Review of the VA Central California Health Care System, Fresno, CA



5
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
6
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.
7
  References used for this topic included:
	 VHA Directive 2011-036, Safety and Health During Construction, September 22, 2011.
	 VA Office of Construction and Facilities Management, Master Construction Specifications, Div. 1, “Special
   Sections,” Div. 01 00 00, “General Requirements,” Sec. 1.5, “Fire Safety.”
	 Various Centers for Disease Control and Prevention recommendations and guidelines, Joint Commission
   standards, and Occupational Safety and Health Administration (OSHA) regulations.




VA OIG Office of Healthcare Inspections                                                                        32
